CERTIFICATE OF SERVICE
No. 19-30
Zoe Spencer
Petitioner(s)
v.
Virginia State University, et al.
Respondent(s)
STATE OF MASSACHUSETTS )
) SS.:
COUNTY OF NORFOLK
Being duly sworn, I depose and say under penalty of perjury:
That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
On the undersigned date, I served the parties in the above captioned matter with the ZOE
SPENCER REPLY BRIEF OF PETITIONER, by mailing three (3) true and correct copies of the same by
USPS Priority mail, postage prepaid for delivery to the following addresses:
Toby Jay Heytens
Office of the Attorney General
202 North Ninth Street
Richmond, VA 23219
(804) 786-7240
solicitorgeneral@oag.state.va.us
Counsel for Virginia State University, et al.

Lucas eDeus

September 13, 2019
SCP Tracking: Spencer-4107 Overrdige Dr.-Cover Tan

